Supremo Court, U.S.
FILED

AUG - 9 2021
OFFICE OF THE CLERK

No.

21-14

311t tbe intprente Court of tije ?Butte) OPtateo
Elizabeth Harding Weinstein,
Petitioner,
v.
Village of Briarcliff Manor, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Second Circuit
SUPPLEMENTAL BRIEF FOR PETITIONER

Elizabeth Harding Weinstein,
Pro Se
Currently Homeless as per the
Courts, Address Kept
Confidential from Abusers

August 9, 2021

Please direct all
correspondence to
lizhardinel@mac.com
(646) 261-7685

Brian Stryker
Weinstein, Pro Se
180 River Road
Briarcliff Manor, NY 10510
brian.weinstein@davispolk.com,
brianstrykerweinstein@email.co
m
(646) 261-7685

David Chen
Office of the Westchester
County Attorney
148 Martine Avenue Suite 600
White Plains NY 10601
dhca@westchestergov.co
m
(914) 995-3616

Lewis Silverman
Silverman & Associates
445 Hamilton Avenue Suite
#1102
White Plains NY 10601
lsilverman@silvermanandassoci
atesnv.com
(914) 574-4510

(Counsel for Respondents)

TABLE OF CONTENTS

SUPPLEMENTAL BRIEF
I.

II.

New Retaliatory Actions By Judiciary
Article 81 "Hearing" "Order" while Acknowledging
No Jurisdiction, and Denying: Access To Hearing,
Lawyer, Witnesses, Transcripts
Children Kidnapped, Homeless, Finances
Still Cut Off by Court, Threatened with Arrest,
"Trial Ready," Court Denies Access and Medical
Protections for the Children, even in face of evidence of
Date Rape Drugs on Children
Dismissal of Second Circuit Court
of Appeals 21-1099 and 21-1127
Seibel (21-cv-01996) and Swain (21-CV-04543) Collusion,
Despotic Orders
Federal Court Collusion with Sealed, Illegal
"Guardianship" Case
Second Circuit Court Obstruction of Justice 21-1818
Denying Access to Mail While Courts Mail
Important Documents, Spoliation of Evidence
Devastating and Destabilizing Effect on All Citizens

III. Restrictions on Individual Rights and
Medical Freedom Increasing
IV.

V.

VI.

1
1

1

5
6
6
8
8
9
9

10

Flood of Lawsuits to System, Encouraged
by Court's Delay

10

There Are No Jurisdictional Barriers to Review,
and Trial will not Aid This Court's Review

10

No Compromise on Our Inalienable Rights

VII. CONCLUSION

11
12

INDEX TO APPENDICES
Al.

31053-2021 Docket, Nys Supreme, Westchester 31053-2021; Malone
Denial Of Witnesses, Court Watchers, Press In Case Nys Supreme,
Westchester 31053-2021; Malone
Affidavit From Domestic Violence Counselor Affirming Narcisssitic
Abuse And No Psychiatric Concerns For Elizabeth Harding Weinstein
Charles Goldberger Affidavit And Bill Affirming Impropriety; 310532021
Document Tampering And Subpoenas, 31053-2022
Malone's Own Order Which She Violates; 31053-2021
April 2020-August 2021 Cyberstalking, Including Cyberstalking
Witnesses And Petitioner's Supporters
Petitioner's Osc Malone Declined To Sign, Willfully Lied; 310532021
Appointee's From Malone Declining Appointment Prior To County
Clerk Signing; 31053-2021
Malone Signs Moot Osc, Prior To County Clerk Signature; 310532021

Al 1.

Timothy C. Iodni, Court Clerk, Signs Moot Malone Judgement And
Order; 31053-2021

Al2.

Letter To Timothy C Iodni, County Clerk
Lubell Willful Fraud; Nys Supreme, Westchester 55866/2020
21-1099, 21-1127 Dismissal, Then "Mandate" Weeks Later
Letter Contesting Seibel Orders To Non-Parties, "Inquiry" Into Pro
Se Plaintiff's Competency

1-21-Cv-04543-Lts (7-21-Cv-04543-Cs) Docket, Deny Access,
Consolidate Without Motion, Dismissal
Second Circuit Court Of Appeals Docket 21-1818, Petitioner's
Motions, Documents Filed As Unruly "Supplementary Papers"
Seibel August 2, 2021 Order On Ex Parte Letter From Silverman; 121-Cv-01996-Cs

1

SUPPLEMENTAL BRIEF
The coercion and torture Petitioner has endured
since filing this Writ has been profound, devastating,
unlawful and unfathomable. While the evidence of harm is
exhaustive, the case itself is clean and simple: this is about
judicial tyranny, which has a catastrophic impact on the
rights and lives of all citizens.
A partner from the coveted law firm Davis Polk and
Wardwell, whose livelihood is threatened, uses local, state,
federal, and federal appellate judges, court clerks, and
police to torture and abuse a Pro Se Petitioner, with
alarming ease. At the crux of the case is a manufactured
false arrest and imprisonment, in solitary confinement, for
"not wearing a mask," a subsequent "competency
evaluation" order to give the presiding judge thin plausible
deniability for his kidnapping, and an article 81 proceeding
to seek totalitarian dominion over a competent Pro Se
Plaintiff who will not stop fighting for her children's and
her rights.
Pro Se Plaintiff seeks relief in the courts from the
crimes of the Defendants, but is met with abuse,
lawlessness, and an utter absence of any due process. The
evidence of the Judiciary's continued retaliation is
undeniable and sometimes overwhelming. It sets
dangerous precedence, impacts the rights of all citizens,
and requires this court's immediate attention.
Plaintiff addresses the harm in the order of
magnitude.
A. ARTICLE 81 "HEARING": Janet C Malone's
unlawful adjudication of this case is horrifying. The court
recalls the petitioner for my "guardianship," is Defendant
Brian Stryker Weinstein, my domestic violence abuser and
a pedophile. Petitioner is divorcing Defendant Weinstein
after discovering Defendant Weinstein's pedophilia, and
after Defendant began using police and judges to torture
our children and Petitioner.

2

At the time of Writ filing, it was unclear if
"hearings" were conducted, as Malone had a tacit
admission she lacked jurisdiction, and Malone ignored
Petitioner's clear competency and affidavits of Petitioner's
long time Domestic Violence therapist who affirmed such.
(A3). Malone outright sanctioned Defendant Weinstein's
criminal service for the case, including stalking, criminal
trespassing, breaking and entering which required police
intervention. (Al, doc 28-44) Only after an exorbitant bill
was submitted by a "court evaluator," Charles Goldberger,
who never met Petitioner, on July 15, 2021 was there
evidence that "conferences" were held. (A4)
Petitioner never wavered from the position that
Malone lacked jurisdiction and the case must be
immediately dismissed, and documented that Malone
denied Petitioner (the Pro Se Respondent in Malone's
court) access to the court or "hearings," denied Petitioner's
witnesses, press requests, jury trial, or motion to unseal,
denied any proper request of the court for transparency,
discovery, legal fees. (Al, A2, A3)
Goldbergers's affidavit and bill reveal Goldberger
conducted "business" and attended Malone "hearings" from
June 17-July 1 prior to filing a Notice of Appointment with
Goldberger's fiduciary license, which was submitted after
the "hearing." This renders Goldberger a legal stranger
from June 17 through the June 24, 2021 hearing, and
displays Goldberger's inclination to act unethically and
unlawfully. (Al, doc 74, 75, 128, 140)
Goldberger willfully ignored Petitioner's June 17,
2021 letter, filed and served the day of Goldberger's
"appointment" which demonstrated Petitioner's clear
competency, the criminal intent of the court, and denied
Goldberger consent to contact Petitioner or Petitioner's
illegal representation in any way. (Al, A4)

3

Goldberger's willfully misrepresents Petitioner's
address, acknowledges frequent communication with
illegal representation, to wit Hall and Penachio, while
having knowledge the "representation" was acting illegally.
(Al, A4)
The file for the case was tampered with and
documents deleted. To wit, documents 67-71, Malone's
signed subboenas ordering virtual and in person
appearances for Defendant Weinstein's witnesses, were
deleted, and the file was not appropriately docketed. (A5)
Subpoenas reveal Defendant Weinstein employed
Defendant Weinstein's co-defendants and nefarious related
parties from Petitioner's federal cases as his only "experts"
and "witnesses" for why "guardianship" was necessary over
every aspect of Petitioner's life. Malone approved the
subpoenas for virtual hearing, then deleted them from the
record after denying Petitioner virtual attendance to the
"hearing." (Al, A5) Files 109, 110, 111, 146 were also
deleted by the Court without proper docketing, document
146 being an important OSC to Malone.
Ms. Malone violated her own order (A6), as there
was an illegal service which rendered the case a nullity,
Petitioner was denied conference on exhibits, and denied
an exchange of exhibits prior to "hearing." Petitioner was
not present at the "conferences" or "hearing" and
Defendants failed to file a waiver or provisions directly to
the court to allow for the proceeding to continue in
Petitioner's absence.
There was a diligent effort by Defendant Weinstein,
his multiple lawyers (one who is a Defendant in a related
case) and Malone, to act unlawfully and deny Petitioner
any due process. It can not be overemphasized that Malone
conducted the hearings illegally ex parte, and denied Pro Se
Petitioner any access to the court.

4

During the pendency of the Malone case, Defendant
Weinstein was cyberstalking and harassing Petitioner and
her supporters for filing information about Defendant
Weinstein's crimes and pedophilia, and Petitioner's clear
competency, in court cases. (A7)
Defendant Weinstein issued Malone a Proposed
Judgement and Order on July 23, 2021 which- traffics
Petitioner and desecrates Petitioner's freedoms, property
and assets. Petitioner objected the same day, and filed an
OSC on July 26, 2021 to dismiss with cross-motion for
sanctions, and denial of Goldberger fees, acknowledging
the lack of jurisdiction, the obvious conflict, the illegality of
the proceeding, denial of Petitioner's access, and the
misappropriation of taxpayer dollars. Petitioner's motion
for Judgement to Dismiss and cross motion for sanctions
was deleted by the Court on July 30, 2021. (Al, doc 146)
Petitioner resubmitted the motion the same day, July 30.
On August 2, 2021, Malone refused to sign
Petitioner's OSC, willfully lying that Petitioner did not
submit to Malone an affidavit, a untruth easily verified on
the docket. (A8,A1). Malone immediately issued a signed
Judgement which enslaves Petitioner, desecrates my
rights, and ordered Petitioner pay for nefarious court
officers who Malone used to traffic Petitioner. (Al, doc
150). Malone sent her signed order to the clerk's office.
Malone's appointed "guardian" Mr. Neal
Fellenbaum and "court evaluator" Mr. Richard Haig
Sarajian both refused the appointment in Malone's order
after I contacted them directly, rendering Malone's order,
unsigned. by the county clerk, moot. (A9) Petitioner
submitted another August 2, 2021 OSC to dismiss the case
and an amended August 3, 2021 OSC which included
sanctions, damages, and subpoenas (Al, A10).

5

On August 4, 2021 Malone signed the moot August
2, 2021 OSC, thereby acknowledging Pro Se Petitioner's
competency, and Malone's bad faith to not adjudicate on
the proper OSC. Malone still advanced the also moot
Malone August 2, 2021 Judgement, which was signed by
County Clerk Timothy Idoni on August 6, 2021 (All). Mr.
Idoni has not yet responded to the letters informing him of
the fraud and moot order. (Al2)
Trafficking an outspoken, competent Pro Se litigant,
and a divorcing spouse, who is highlighting judicial
corruption, into a guardianship and slavery, might be the
dream of many criminal judges and a sociopathic lawyer
husband, but it decimates our humanity and in the end
benefits no one.
B. CHILDREN REMAIN KIDNAPPED,
PETITIONER HOMELESS, ALL FINANCES CUT
OFF, THREATENED WITH ARREST AND DENIED
ACCESS TO COURT Petitioner still has been denied all
direct access to her children, her home, her finances, her
belongings, her passport, her court documents, mail, and
access to the court by Mr. Lewis Lubell, judge in
Petitioner's Divorce Case 55866/2020, and by Defendant
Weinstein. It has been 430 days of torture. Mr. Lubell
continues to hideously denied the children any medical or
protective oversight while there is evidence of date rape
drug use on the children by Defendant Weinstein.
On August 2, 2021, Mr. Lubell issued an order
willfully misrepresenting fact and law to defraud the
children Petitioner's protection, and defraud Petitioner (the
Pros Se Petitioner in the Lubell case), access to her
children, financial support, housing, passport court
documents, due process, discovery, jury trial or mail. (A13)
Lubell dismissed Petitioner's well-founded motions for
legal fees, to vacate a "trial ready" order when discovery
has been denied, contempt motions, vacating ex post facto,
ex parte orders, to name a few, and protects Defendant
Weinstein from accountability.

6

Lubell openly protects an ex parte, ex post facto
illegal Order and colludes to defraud Petitioner. (A13)
Lubell prohibits Petitioner from filing new motions,
including for Defendant Weinstein's clear contempt, yet
bestows Petitioner "permission" to submit duplicative,
frivolous motions, and chides her for not filing them, when
existing motions for the same relief are unadjudicated or
could be renewed, reargued and reconsidered.
DISMISSAL OF 21-1099 AND 21-1127: The
Writ was mailed July 2, filed July 7, 2021. On July 8, 2021,
Appeals 21-1099 and 21-1127 in the Second Circuit Court
of Appeals, were dismissed, for "not filing form DP,"
ignoring the denial of access to the court. Second Circuit
ignored and thus denied the court's tampering with
evidence of Defendant Weinstein's pedophilia, and
Petitioner's motion for correction and for electronic filing.
(A14) Clerk of the Court Catherine O'Hagan Wolf
previously denied Petitioner access to the court, revoked
Petitioner's electronic filing, deprived Petitioner telephone
access to the court, all after Petitioner publicly posted about
the Second Circuit's impropriety, which prompted this Writ
(A14).
Three weeks after the cases were dismissed, Ms.
O'Hagan Wolf filed a "mandate." (A14)
SEIBEL AND SWAIN COLLUSION AND
DESPOTIC ORDERS: Immediately after the writ was
filed, Petitioner filed copies of the writ and exhibits into the
clerk's office for cases 7-21-CV-01996-CS (Seibel, 1983 case
for false imprisonment) and 1-21-CV-04543-LTS (Swain,
Fraud for Appellate Court 5704 Review). Petitioner did so
for notice, good faith, and evidentiary submission of the
breadth of the abuse from which Petitioner and her
children were suffering at the hands of the judiciary.
Clerks refused to file the documents into the cases and

7

Cathy Seibel denied Petitioner an order to the Clerk to file
the submitted documents into the case. (A15)
Swain ignored and denied Petitioner's motions for
emergency relief or access to the court since May filing. On
July 12, Petitioner submitted another prayer for relief.
(A16). Within hours, Swain consolidated the case without
motion and transferred the case to Seibel, when it had been
well documented that Seibel violated Petitioner's rights
thus far. Petitioner filed objections, which were ignored.
(A16)
Seibel issued and mailed despotic "orders" to nonparties to the case, some who were friendly to Petitioner
Seibel's Orders (not
and some who were hostile.
subpoenas) to non-parties demanded the non-parties
provide Seibel with Petitioner's confidential medical
records. Seibel's "orders" are highly illegal, in violation of
HIPPA laws, and absent of any due process. (A15)
On July 16, 2021 Seibel dismissed the Swain case,
which deprived Petitioner of her children, her home, her
freedoms, and her rights, as "frivolous," prior to any
servicing or access to the court, just as Seibel did in her own
case. Seibel ordered the Swain case consolidated after
dismissal, for the nefarious purposes of an "inquiry" into
the Petitioner's "competency," when Petitioner was a Pro
Se Plaintiff in the Swain and Seibel cases, and had never
been before Seibel, and Seibel's illicit intent to disparage
and irreparably harm Petitioner was obvious. (A16)
On July 27, 2021, when Petitioner realized the case
had been dismissed then "consolidated," Petitioner filed an
appeal in the Second Circuit for the Swain case, requesting
immediate electronic filing, and a motion to move venues
given the Second Circuit corruption thus far. (A17)

8

FEDERAL COURT COLLUSION WITH
SEALED ILLEGAL "GUARDIANSHIP" CASE On or
around August 2, 2021 Seibel submitted an "order" in the
"consolidated" case written in the upper right hand corner
of a July 27, 2021 ex parte letter from Mr. Lewis Silverman,
the lawyer who represents many Defendants and Police
Officers in Petitioner's 1983 (Seibel) case. Mr. Silverman's
July 27, 2021 letter was previously kept secret from
Petitioner and parties in the case. (A18)
It is noteworthy that Mr. Silverman has never filed
an order of appearance in the Seibel case, refused all
communication with the Petitioner since Petitioner's filing,
but continues to have ex parte communications with Seibel,
which Seibel seals from Petitioner, except for this letter.
The Silverman letter willfully shows Silverman,
who was not a party to the Malone case (for illegal
guardianship), had insider information about the Malone
case, and willfully engaged with ex parte communciations
and collusion with federal judge Seibel regarding the sealed
case.
Mr. Silverman's July 27, 2021 letter discloses, in
granular detail, Malone's order from the confidential
Seibel
Malone case, in advance of any order issued.
"ordered" Silverman to provide a federal judge more
confidential information about a sealed case as soon as it
was available. (A18)
SECOND CIRCUIT OBSTRUCTION OF
JUSTICE 21-1818 Second Circuit Clerks denied
Petitioner the case number for Petitioner's appeal from the
Swain case for weeks, which was eventually disclosed to be
21-1818. All requests for emergency injunctive relief and
access to be heard on the ex post facto ex parte Temporary
Orders of Protection stemming from the case have been
ignored and thus denied.

9

Clerks deny Petitioner access to electronic filing and
willfully mis-categorize Petitioner's filings, lumping them
all as "supplemental papers to motion," making docket 211818 unruly. (A17) Petitioner's requests to Ms. O'Hagan
Wolfe, Clerk of the Court, to correct the misrepresentations
and fraud, and to approve Petitioner's electronic filing are
ignored and thus denied.
G. DENYING ACCESS TO MAIL WHILE
COURTS AND DEFENDANTS MAIL IMPORTANT
DOCUMENTS, SPOLIATION OF EVIDENCE:
Defendants in this case deny Petitioner any and all direct
communication, yet, upon information and belief, mail
documents to Petitioner's home.
All local, state, federal, federal appellate, and US
Supreme courts are noticed that the Lubell and Halper
courts are denying Petitioner access to her mailbox, which
is not on private property. All courts are mailing Petitioner
documents to the mailbox. All courts mandate Petitioner
is accountable for the instructions, information, and Orders
in Petitioner's mail. All courts deny Petitioner access to the
court for relief from the clear fraud.
Over five different accounts social media accounts,
with evidence of judicial crimes, fraud, harassment, and
stalking, which have been used as evidentiary submissions
in this case and other federal cases, have been deleted, two
since the writ filing. Federal Judge Seibel denies any relief
for the spoliation of evidence.
II. DEVASTATING AND DESTABALIZING EFFECT
ON ALL CITIZENS
The desecration of an individual's rights to one's
children, home, finances, freedoms, right to bear arms,
medical autonomy, privacy, and free speech, absent of all
due process, via tyrannical judicial orders, has a clear
devastating and destabilizing effect on all citizens that
requires no further explanation.

10

FLOOD OF LAWSUITS TO SYSTEM
ENCOURAGED BY COURT'S DELAY
It is improper for this court to delay on adjudication
of the constitutionality of mask mandates, violations of
Nuremberg code, the government's lack of power to enforce
both, guardianships as slavery, and the issue of judicial
immunity when these very issues permeate into every
aspect of daily life, and have remained at the surface.
Surely, it would appear to the fair minded person there is
conflict of interest in the courts willful delay as a means to
drum up business for the courts, as it is reasonable to
expect a flood of lawsuits while the US Supreme court toys
with the case and people's lives.
Allowing lawsuits on these critical issues to go
forward, and subjecting litigants to the hardships of them,
when these issues can be adjudicated forthwith, conflicts
with the purpose of the courts as a shield for We The
People.

THERE ARE NO JURISDICTIONAL
BARRIERS TO REVIEW, AND TRIAL WILL NOT MD
THIS COURT'S REVIEW
While Petitioner and my children's right to a trial by
jury is clear yet has been denied, accepting this case for US
Supreme Court review, when lower courts have denied due
process, is an appropriate and necessary sacrifice
Petitioner is willing to make. A trial would not clarify
anything relevant to the questions presented, except to
provide more evidence of the violations of Petitioner's
rights. If federal law allows for mask mandates, slavery via
guardianship, and violations of the Nuremberg Code, this
Court should say so now and allow We The People the
opportunity to promptly respond.
The Court has the evidence of the unlawful arrest
and imprisonment for no mask, and the catastrophic
consequences that have followed. Petitioner can replace

11

the video evidence that was uploaded and spoliated by the
mysterious deletion of Petitioner's social media if this court
refuses to stop the destruction of it. This Court should not
stay its hand and invite a depletion of resources and time
for others enduring the same fate. Basic principles of
constitutionality demand granting certiorari to allow for a
decision by this Court.
VI. NO COMPROMISE ON OUR INALIENABLE
RIGHTS, RESTRICTIONS ON INDIVIDUAL RIGHTS
AND MEDICAL FREEDOMS ARE INCREASING
New, unconstitutional restrictions are being
enforced that require citizens to give up one right to
exercise others. None can be so clear as the mask and covid
restrictions that are imposed in the courts, required for
entry to defend your rights, throughout our country. Live
Nation is now requiring one give up one's right to privacy
or medical autonomy in order to exercise our right to
assemble.
We The People will not compromise on our
inalienable rights. It is a logical fallacy that a middle
ground compromise will lead to the truth. This Court
should not tolerate the erosion of protections that Congress
and the Supremacy Clause provide, and should take up this
case now. Are We The People left to conclude the U.S.
Supreme Court's current silence, or failure to accept this
case for Writ of Certiorari, is a tacit admission the Supreme
Court Justices are culpable for the crimes against
humanity now being committed?

12

CONCLUSION
It seems impossible that these issues of
constitutional law could come to the attention of a stay at
home Mother of three but not to the attention of the
Justices who defend the Constitution of the United States
against all enemies, foreign and domestic.
This Court should grant the petition for writ of
certiorari, and partner with We The People to defend the
Constitution, or leave We The People to defend the
Constitution from this Court.

>11 Submitte
Ak
ect

Elizabeth

t-

ding Weinstein

Currently Homel s as Per the Courts
Please direct all Co munications to
Lizhardin 1 mac. om 646-261-7685
ious Home
dress now denied to
urt:
me by
180 River Rd
Briarcliff Manor NY 10510
Plaintiff, Pro Se

Additional material
from this filing is
available in the
Clerk's Office.

